                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-00026-272




    Community Based Outpatient

          Clinic Reviews

                 at

  VA Connecticut Healthcare System

          West Haven, CT





August 20, 2013

                        Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                                 CBOC Reviews at VA Connecticut HCS



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       HCS      Healthcare System
                       MH       Mental Health
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       PII      personally identifiable information
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                                 CBOC Reviews at VA Connecticut HCS



                                            Table of Contents

                                                                                                                            Page

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics.............................................................................................               7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 1 Director Comments ...............................................................................                    12

  B. VA Connecticut HCS Acting Director Comments...............................................                                  13

  C. OIG Contact and Staff Acknowledgments .........................................................                             16

  D. Report Distribution.............................................................................................            17





VA OIG Office of Healthcare Inspections
                                                           CBOC Reviews at VA Connecticut HCS



                                Executive Summary

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during the week of June 24, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the parent facility. The C&P, EOC,
and emergency management onsite inspections were only conducted at the randomly
selected CBOCs (see Table 1).

    VISN        Facility                   CBOC Name           Location
                                           New London VA
                                                               New London, CT
                                           Primary Care Center
       1        VA Connecticut HCS
                                           Stamford VA
                                                               Stamford, CT
                                           Primary Care Center
                                     Table 1. Sites Inspected

Review Results: We made recommendations in three review areas.

Recommendations:            The VISN Director and the Acting Facility Director, in
conjunction with the respective CBOC managers, should take appropriate actions to:

	 Ensure that patients with normal cervical cancer screening results are notified of
   results within the required timeframe and that notification is documented in the EHR.

	 Ensure that clinicians document all required pneumococcal vaccine administration
   elements and that compliance is monitored.

	 Ensure that laboratory specimens are secured during transport from the New
   London and Stamford CBOCs and CBOCs’ contract laboratories to the parent
   facility.




VA OIG Office of Healthcare Inspections                                                    i
                                                      CBOC Reviews at VA Connecticut HCS


	 Ensure that all identified EOC deficiencies and corrective actions are tracked and
   trended for the New London and Stamford CBOCs.

Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A
and B, pages 12–15, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                   JOHN D. DAIGH, JR., M.D.
                                                 Assistant Inspector General for
                                                      Healthcare Inspections




VA OIG Office of Healthcare Inspections                                               ii
                                                                     CBOC Reviews at VA Connecticut HCS



                                  Objectives and Scope

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to Centers for Disease Control and Prevention guidelines and VHA
   recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19. 1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and


1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.



VA OIG Office of Healthcare Inspections                                                               1
                                                                         CBOC Reviews at VA Connecticut HCS


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Two CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                  2
                                                                                                                   CBOC Reviews at VA Connecticut HCS



                                                               CBOC Profiles

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the parent facility.

                                                                                                 Uniques FY           Visits FY
                                                                                          6
VISN             Parent Facility                   CBOC Name                   Locality            20127               20127             CBOC Size8
                                                     Danbury                    Urban               1,697               6,444             Mid-Size
                                                  (Danbury, CT)
                                                 New London VA                   Urban               4,513              13,844              Mid-Size
                                               Primary Care Center
                                                (New London, CT)
                                               Stamford VA Primary               Urban               1,813               4,782              Mid-Size
                                                    Care Center
                                                  (Stamford, CT)
    1         VA Connecticut HCS               Waterbury VA Primary              Urban               2,623               9,802              Mid-Size
                                                    Care Center
                                                 (Waterbury, CT)
                                               Windham VA Primary                 Rural              1,653               3,648              Mid-Size
                                                       Care9
                                                 (Willimantic, CT)
                                                Winsted VA Primary                Rural              2,001               6,470              Mid-Size
                                                       Care
                                                   (Winsted, CT)
                                                                    Table 2. Profiles



5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

9
  The Windham VA Primary Care was deactivated on June 22, 2013, but EHR reviews were performed to evaluate care provided during FY11-FY12.



VA OIG Office of Healthcare Inspections                                                                                                                   3
                                                                      CBOC Reviews at VA Connecticut HCS



                     WH and Vaccination EHR Reviews

                      Results and Recommendations

WH
Cervical cancer is the second most common cancer in women worldwide. 10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review element marked as NC needed improvement.
Details regarding the finding follow the table.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
              X                Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 33 patients who received a cervical cancer screening at the VA Connecticut
HCS’s CBOCs.

Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available. We reviewed 31 EHRs of patients who had normal cervical cancer
screening results and determined that 5 patients were not notified within the required
14 days from the date the pathology report became available.




10
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.



VA OIG Office of Healthcare Inspections                                                                        4
                                                                      CBOC Reviews at VA Connecticut HCS


Recommendation

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.13
The NCP provides best practices guidance on the administration of vaccines for
veterans. The Centers for Disease Control and Prevention states that although
vaccine-preventable disease levels are at or near record lows, many adults are under-
immunized, missing opportunities to protect themselves against tetanus and
pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review element
marked as NC needed improvement. Details regarding the finding follow the table.

         NC                                       Areas Reviewed
                      Staff screened patients for the tetanus vaccination.
                      Staff administered the tetanus vaccine when indicated.
                      Staff screened patients for the pneumococcal vaccination.
                      Staff administered the pneumococcal vaccine when indicated.
           X          Staff properly documented vaccine administration.
                      Managers developed a prioritization plan for the potential occurrence of
                      vaccine shortages.
                                            Table 4. Vaccinations

Documentation of Pneumococcal Vaccination.              Federal Law requires that
documentation for administered vaccines include specific elements, such as the vaccine
manufacturer and lot number of the vaccine used.14 We reviewed the EHRs of
37 patients who received a pneumococcal vaccine at the parent facility or its associated
CBOCs and did not find documentation of all the required information related to
pneumococcal vaccine administration in 14 of the EHRs.



13
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.
14
     Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.


VA OIG Office of Healthcare Inspections                                                                      5
                                                CBOC Reviews at VA Connecticut HCS


Recommendation

2. We recommended that managers ensure that clinicians document all required
pneumococcal vaccine administration elements and that compliance is monitored.




VA OIG Office of Healthcare Inspections                                         6
                                                                  CBOC Reviews at VA Connecticut HCS



                                 Onsite Reviews

                         Results and Recommendations

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOCs (see Table 5).

                                             New London                          Stamford
     VISN                                         1                                 1
     Parent Facility                    VA Connecticut HCS                 VA Connecticut HCS
     Types of Providers                  Clinical Pharmacist              Primary Care Physician
                                       Primary Care Physician                  Psychiatrist
                                             Psychiatrist                      Psychologist
                                             Psychologist
     Number of MH                                 736                                231
     Uniques, FY 2012
     Number of MH Visits,                        3,534                               975
     FY 2012
     MH Services Onsite                           Yes                                Yes
     Specialty Care                               WH                                 WH
     Services Onsite
     Ancillary Services                   Electrocardiogram                  Electrocardiogram
     Provided Onsite
     Tele-Health Services                      MH                                 MH
                                             MOVE15                              MOVE
                                            Neurology                    Care Coordination Home
                                      Care Coordination Home                   Telehealth
                                            Telehealth
                                         Table 5. Characteristics




15
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                            7
                                                           CBOC Reviews at VA Connecticut HCS


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.16 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or medical staff’s
                         Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.




16
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                    8
                                                         CBOC Reviews at VA Connecticut HCS


         NC                              Areas Reviewed (continued)
                       The determination to continue current privileges was based in part
                       on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

The CBOCs were compliant with the review areas; therefore, we made no
recommendations.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOCs identified as NC needed improvement. Details regarding the findings follow the
table.

        NC                                     Areas Reviewed
                    The CBOC was compliant with the American Disabilities Act,
                    including: parking, ramps, door widths, door hardware, restrooms,
                    and counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ PII was secured and protected.
  New London        Laboratory specimens were transported securely to prevent
   Stamford         unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
                    Information Technology security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.



VA OIG Office of Healthcare Inspections                                                  9
                                                                        CBOC Reviews at VA Connecticut HCS


           NC                                Areas Reviewed (continued)
                         Sharps containers were less than 3/4 full.
                         Safety needle devices were available for staff use (e.g., lancets,
                         injection needles, phlebotomy needles).
     New London          The CBOC was included in facility-wide EOC activities.
      Stamford
                                                   Table 7. EOC

PII. We found that the transportation of laboratory specimens from the New London
and Stamford CBOCs and CBOCs’ contract laboratories to the main facility was not
secured.     CBOC and contract laboratory staff placed specimens in unsecured
containers, and a contract courier transported the specimens to the parent facility for
processing. The specimens disclosed the patients’ names and social security numbers.
The containers were unsecured; therefore, staff could not ensure the security of
patients’ PII.17

EOC Rounds. EOC rounds were regularly performed at the New London and Stamford
CBOCs and appropriate corrective actions were taken. However, deficiencies and
corrective actions were not tracked and trended by the EOC Committee.

Recommendations

3. We recommended that laboratory specimens are secured during transport from the
New London and Stamford CBOCs and CBOCs’ contract laboratories to the parent
facility.

4. We recommended that all identified EOC deficiencies and corrective actions are
tracked and trended for the New London and Stamford CBOCs.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.18 Table 8 shows the areas
reviewed for this topic.

           NC                                      Areas Reviewed
                          There was a local medical emergency management plan for this
                          CBOC.
                          The staff articulated procedural steps of the medical emergency
                          plan.
                          The CBOCs had an automated external defibrillator onsite for
                          cardiac emergencies.
                          There was a local MH emergency management plan for this CBOC.


17
     The Health Insurance Portability and Accountability Act (HIPAA), 1996.
18
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                                10
                                                         CBOC Reviews at VA Connecticut HCS


        NC                              Areas Reviewed (continued)
                     The staff articulated the procedural steps of the MH emergency
                     plan.
                                 Table 8. Emergency Management

The CBOCs were compliant with the review areas; therefore, we made no
recommendations.




VA OIG Office of Healthcare Inspections                                                 11
                                                        CBOC Reviews at VA Connecticut HCS
                                                                              Appendix A

                            VISN 1 Director Comments


                Department of
                Veterans Affairs	                           Memorandum


       Date:	          July 26, 2013

       From:	          Director, VISN 1 (10N1)

       Subject:	       CBOC Reviews at VA Connecticut HCS

       To:	            Director, Bedford Regional Office of Healthcare Inspections
                       (54BN)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)



       I have reviewed and concur with the action plans included in the attached
       memorandum regarding the Status Request — Community Based
       Outpatient Clinic Reviews for New London VA Primary Care Clinic and
       Stamford VA Primary Care Clinic, CT.


       /es/

       Michael Mayo-Smith, MD, MPH
       Network Director




VA OIG Office of Healthcare Inspections                                                12
                                                        CBOC Reviews at VA Connecticut HCS
                                                                               Appendix B

           VA Connecticut HCS Acting Director Comments



               Department of
               Veterans Affairs                             Memorandum


       Date:           July 24, 2013

       From:           Acting Director, VA Connecticut HCS (689/00)

       Subject:        CBOC Reviews at VA Connecticut HCS

       To:             Director, VISN 1 (10N1)



       I have reviewed and concur with the action plans included in the attached
       memorandum regarding the Status Request — Community Based
       Outpatient Clinic Reviews for New London VA Primary Care Clinic and
       Stamford VA Primary Care Clinic, CT.



       Sincerely,


       /es/
       John Callahan
       Acting Facility Director




VA OIG Office of Healthcare Inspections                                                13
                                                      CBOC Reviews at VA Connecticut HCS


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Concur

Target date for completion: 8/5/13

VA Connecticut immediately addressed the issue with key stakeholders from the
CBOC’s and women’s health. A cervical screening tracking tool is already in use and
was being reviewed monthly by the CBOC care teams. The tool will now be reviewed
weekly to assure all normal screening results are followed up on within the required
timeframe and documented in CPRS. Reeducation on the process took place at the
7/18/2013 Process Management Meeting with the Firm Chiefs in Primary Care, along
with an email to CBOC staff and Women’s Healthcare Champions group sent on
7/23/2013 outlining the process. Additional email education follow up will occur by
8/5/2013 to the CBOC nursing staff. The Head Nurse Manager for the CBOC will audit
the tracking tool for 30 charts per month (5 per CBOC if available) for a minimum of 3
months until 100% compliance is achieved, then subsequent audits will be done
quarterly. The audit will be reported to QM via the Nursing Director for Primary Care.

2. We recommended that managers ensure that clinicians document all required
pneumococcal vaccine administration elements and that compliance is monitored.

Concur

Target date for completion: 8/6/2013

VA Connecticut key stakeholders reviewed clinical reminders to assure required
elements were included. Email reeducation to appropriate staff will occur by 7/26/13 by
the Nursing Director for Primary Care and at the Primary Care and CBOC staff
meetings on August 5th and 6th, 2013. Beginning in August, the Head Nurse Manager of
the CBOC will audit 30 charts per month for patients who have received pneumococcal
vaccine for compliance with required documentation. Chart audit will be done for a
minimum of 3 months until 100% compliance is achieved, then subsequent audits will
be done quarterly and will be reported to QM via the Nursing Director for Primary Care.

3. We recommended that laboratory specimens are secured during transport from the
New London and Stamford CBOCs and CBOCs’ contract laboratories to the parent
facility.


VA OIG Office of Healthcare Inspections                                              14
                                                      CBOC Reviews at VA Connecticut HCS


Concur

Target date for completion: 8/19/13

VA Connecticut met with key stakeholders from leadership, the lab, CBOC, patient
safety, privacy and quality management to discuss the most appropriate way to ensure
security of specimens during transport. Lab service will revise their SOP related to the
transport process from CBOC and contract laboratory to the parent facility and the
education applicable to staff and the contract courier on changes to the process.
Numbered lock tags will be used to secure the transport bags. Specimen Control
sheets will be updated to include the tag number for cross reference upon receipt of the
specimen to the parent facility. A representative number of specimens from each
sending CBOC and contract laboratory site will be sampled each month for at least 3
months until 90% or greater compliance is reached. Monitoring will then be done on an
annual basis and reported to QM via the Lab Quality Assurance staff.

4. We recommended that all identified EOC deficiencies and corrective actions are
tracked and trended for the New London and Stamford CBOCs.

Concur

Target date for completion: 9/23/13

VA Connecticut addressed the recommendation with the Chair, EOC committee and
Quality Management as key stakeholders. EOC rounds were revised and redistributed
to the EOC committee both in paper and electronic format on 7/22/13. Rounds were
reviewed to ensure all areas were covered. The Head Nurse Manager, pending hiring
of an Administrative Officer for the CBOC’s, will be added to the EOC membership for
the August 28, 2013 meeting. Beginning with the September meeting, each monthly
EOC meeting will have a roll up and summary of the previous months rounds as an
agenda item and attachment to allow discussion of any unresolved issues. Monitoring
will occur via the standing agenda item inclusion and minutes are being voted on
electronically for acceptance. New London CBOC will be revisited for rounds planned in
September 2013 and Stamford in November 2013.




VA OIG Office of Healthcare Inspections                                              15
                                                         CBOC Reviews at VA Connecticut HCS
                                                                                Appendix C


                 OIG Contact and Staff Acknowledgments
Contact	                For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite	                 Elaine Kahigian, RN, JD, Team Leader
Contributors	           Annette Acosta, RN, MN
                        Frank Keslof, EMT, MHA
                        Jeanne Martin, PharmD
                        Clarissa Reynolds, CNHA, MBA
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeffrey Joppie, BS
                        Claire McDonald, MPA
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  16
                                                     CBOC Reviews at VA Connecticut HCS
                                                                            Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 1 (10N1)
Acting Director, VA Connecticut HCS (689/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Richard Blumenthal, Christopher Murphy
U.S. House of Representatives: Joe Courtney, Rosa DeLauro, Elizabeth Esty,
 James Himes, John Larson


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                              17
